U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC
              RELEASE


  PATENT AND TRADEMARK OFFICE

Board of Patent Appeals and Interferences:
High Inventory and Inadequate Monitoring
  Threaten Effectiveness of Appeal Process

     Audit Report No. BTD-10628-8-0001 / September 1998




       Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                            Final Report BTD-10628
Office of Inspector General                                                                                    September 1998

                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          I.        PRODUCTIVITY AND STAFFING PROBLEMS HAVE CAUSED
                    HIGH AND INCREASING INVENTORY . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                    A.   Administrative Patent Judges Are Not
                         Maximizing Their Annual Production . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                    B.   Board Members Note Decline in
                         Quality of Appealed Patent Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
                    C.   Review Policies Followed by Board Are Hurting Productivity . . . . . . . . . 7
                    D.   PTO Has Not Adequately Planned for
                         Resources to Handle Board Workload . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                    E.   Administrative Patent Judges Are Performing Non-Processing
                         Activities Without Accounting for Their Time . . . . . . . . . . . . . . . . . . . . 11
                    F.   Remedial Actions Should Help Reduce Inventory,
                         But Will Not Have Major Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                    G.   Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                                 PTO’s Response to Draft Report and OIG Analysis . . . . . . . . . . 14

          II.       BOARD DOES NOT ADEQUATELY MONITOR CASES AND
                    NEEDS AN ADMINISTRATIVE MANAGER . . . . . . . . . . . . . . . . . . . . . . . .                             22
                    A.   Board Is Not Adequately Tracking and Assigning Cases . . . . . . . . . . . .                           22
                    B.   Case Files Are Overwhelming Board’s Storage Capacity . . . . . . . . . . . .                           23
                    C.   Board Needs an Administrative Manager . . . . . . . . . . . . . . . . . . . . . . .                    24
                    D.   Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      24
                                PTO’s Response to Draft Report and OIG Analysis . . . . . . . . . .                             25

APPENDIX: PTO’s Complete Response to Draft Report
U.S. Department of Commerce                                                     Final Report BTD-10628
Office of Inspector General                                                             September 1998

                                    EXECUTIVE SUMMARY

The Office of Inspector General conducted a performance audit of the Board of Patent Appeals
and Interferences of the Patent and Trademark Office. The board hears and decides appeals from
adverse decisions of patent examiners concerning applications for patents, conducts interference
proceedings, and makes final determinations concerning questions of priority of invention and
patentability. The board also hears and decides questions regarding property rights in inventions
in the atomic energy and space fields. The administrative patent judges (APJs) on the board may
affirm or reverse the decision of the examiner in whole or in part, or remand the application for
further examiner consideration. The board’s decisions are subject to judicial review. The board is
led by a Chief Administrative Patent Judge, who reports to PTO’s Deputy Commissioner. At the
end of FY 1997, there were 43 (41 full time) APJs and 40 support personnel at the board.

Productivity and staffing problems have caused a high inventory. At the end of FY 1997,
the number of pending appeals totaled 9,201, an increase of 1,837 over the end of FY 1996. In
the past five years the number of pending appeal and interference cases at the Board of Patent
Appeals and Interferences has grown by more than 350 percent, from 2,668 to 9,649, an average
increase of almost 1,400 cases per year. We concluded that despite its recent initiatives to combat
the growing inventory, PTO waited too long to take action. As a result, appeal and interference
pendency has increased, the effectiveness of the appeal process is threatened, and infringement on
patents may occur during the delay.

We identified several productivity and staffing issues that contribute to the board’s high and
increasing caseload: (1) APJs are not maximizing their production capability; (2) the quality of
appealed decisions appears to be declining; (3) case review policies are adversely affecting board
productivity; (4) PTO and the board are not adequately planning resource needs to meet the
workload; and (5) APJs are not accurately accounting for time spent on non-processing activities.

PTO needs to take a number of actions, including (1) developing a strategy to reduce the
inventory to a manageable level of one-half year’s production (currently approximately 2,000
cases) within five years; (2) clarifying case review policies; (3) vigorously pursuing the planned
hiring of additional APJs; and (4) developing a professional track for examiners to become judges.
Our complete recommendations are on page 13.

Board should improve its case monitoring. We concluded that the board is not adequately
tracking and assigning cases or maintaining a reliable filing and retrieval system. As a result, the
board is compromising its ability to effectively and efficiently manage its workload. The board
needs to (1) process all cases on a first-in, first-out basis and develop a rationale for assigning new
ones, (2) conduct an annual physical inventory of case files, and (3) give highest priority to active
cases and archive inactive cases. These and other factors also led us to conclude that the board


                                                   i
U.S. Department of Commerce                                                     Final Report BTD-10628
Office of Inspector General                                                             September 1998

should select a Chief Administrator to better manage the board’s workload. Our complete
recommendations are on pages 24 and 25.

                                              ------------

In its reply to our draft audit report, PTO agreed to, or has initiated action consistent with, 12 of
the 17 recommendations in the draft report. PTO disagreed with two of the five remaining
recommendations, asserted that it would not benefit from implementing two other
recommendations, and requested a modification to another recommendation. PTO has begun to
address many of these issues through the creation of the Board of Patent Appeals and
Interferences Strategic Plan, which outlines several strategies to reduce the high inventory and
eliminate other risks that threaten the effectiveness of the appeal process.

According to PTO, the board is reducing the inventory during FY 1998, and APJ productivity is
at its highest level since 1993. PTO noted management measures that should reduce the
inventory, including (1) using incentives to reward and encourage high productivity, while rating
those APJs demonstrating poor quality and productivity at an appropriate level, (2) a proactive
approach to improving the quality of the examiner’s product reaching the board, (3) an aggressive
plan for hiring new APJs, and (4) accurate accounting of time devoted by APJs to PTO projects.
PTO stated that is has already began to improve its case monitoring by
(1) developing a new assignment and docketing system, (2) acquiring new file storage space,
(3) conducting semi-annual case inventories, and (4) considering the addition of a program analyst
or chief administrator to assist the Chief Judge.

PTO’s desire to improve the management, performance, and quality of the appeals process is
evident. We are encouraged by the significant increase in productivity in FY 1998, the board’s
new Strategic Plan, and the swiftness with which older cases have been assigned and processed.

We have modified two of our recommendations to reflect information provided by PTO in its
response. We also deleted one recommendation based on information provided by PTO since the
draft audit report. However, some of the actions that PTO plans will not, in our opinion, resolve
all of the problems cited in our draft report. For instance, the Strategic Plan does not propose to
reduce the inventory to one-half year’s production within five years. Moreover, the board has
been unable to implement many of its own initiatives in the past; the board must have PTO
management’s support to successfully execute its current plan. We have therefore reiterated 14
of our recommendations without change.

We have addressed PTO’s response to each set of findings and recommendations in detail,
beginning on pages 14 and 25. We have also attached PTO’s complete response to the draft
report, including the Strategic Plan.


                                                   ii
U.S. Department of Commerce                                                    Final Report BTD-10628
Office of Inspector General                                                            September 1998

                                       INTRODUCTION

The Office of Inspector General has completed its performance audit of PTO’s Board of Patent
Appeals and Interferences. The board hears and decides appeals from adverse decisions of patent
examiners concerning applications for patents, conducts interference proceedings, and makes final
determinations concerning questions of priority of invention and patentability.

Performance audits are objective and systematic examinations of evidence to independently assess
an organization, program, activity, or function, and to provide information to improve
accountability and facilitate decision making by parties with responsibility to oversee or initiate
corrective action. By identifying systemic strengths and weaknesses, the OIG will help the
Department’s managers implement more efficient and effective operations to better serve the
Department’s customers.

                              PURPOSE AND SCOPE OF AUDIT

The purpose of our audit was to (1) evaluate the effectiveness and efficiency with which the board
has managed its caseload, (2) review the status of PTO’s efforts to address the inventory of cases,
and (3) determine what the board should do in the long run to reduce the inventory. We:

       l       reviewed relevant portions of 35 U.S.C. §7, Part 37 of the Code of Federal
               Regulations, and the board’s standard operating procedures;
       l       analyzed workload statistics, historical production data, and staffing levels;
       l       reviewed how the board receives, records, assigns, and monitors cases;
       l       examined numerous internal memorandums; and
       l       observed the board’s facilities for storing case files.

We also:

       l       interviewed 9 of the 43 administrative patent judges (APJs), including the Chief
               Judge and the Vice Chief Judge;
       l       interviewed other key board personnel, including three of the four resource
               administrators and the Chief Clerk;
       l       interviewed PTO officials, including the Acting Deputy Commissioner; the
               Assistant Commissioner for Patents; the Director, Office of Patent Quality Review;
               and the Director, Group 1800 of the examining corps;
       l       obtained the views of outside attorneys and representatives from the American
               Intellectual Property Law Association and Intellectual Property Organization; and
       l       contacted chief administrative law judges and administrative personnel at several
               agencies with quasi-judicial functions.


                                                 1
U.S. Department of Commerce                                                   Final Report BTD-10628
Office of Inspector General                                                           September 1998

To achieve the audit objectives, we relied upon certain computer-generated data provided by the
board in support of its workload. We did not evaluate internal controls over this data; however,
we performed sufficient tests to satisfy ourselves that the data was reliable. Between April and
June 1997, board personnel conducted a physical inventory of case files and subsequently updated
previously published workload statistics. We reviewed the board’s inventory methodology and
related documentation to obtain reasonable assurances that the data was reliable. Nothing came
to our attention to contradict the conclusions of the inventory.

We conducted tests of the board’s compliance with applicable laws and regulations, including 35
U.S.C. §7, and 37 C.F.R. §§1.191-1.198, which authorize its proceedings. We concluded that the
board acted in accordance with these laws and regulations.

We conducted our fieldwork from December 1997 through April 1998 at PTO’s headquarters in
Crystal City, Virginia. Our review was conducted in accordance with generally accepted
government auditing standards and was performed under the authority of the Inspector General
Act of 1978, as amended, and Department Organization Order 10-13, dated May 22, 1980.

                                        BACKGROUND

Title 35 of the United States Code grants the Board of Patent Appeals and Interferences the
authority to hear and decide appeals from adverse decisions of patent examiners concerning
applications for patents, conducts interference proceedings, and make final determinations
concerning questions of priority of invention and patentability. The board also hears and decides
questions regarding property rights in inventions in the atomic energy and space fields. Under 37
C.F.R. §1.196(a), the board may affirm or reverse the decision of the examiner in whole or in part
or remand the application to the examiner for further consideration. The board’s decisions are
subject to judicial review. Dissatisfied parties may bring a civil action in U.S. District Court or
appeal to the U.S. Court of Appeals for the Federal Circuit. The flowchart below outlines the
appeals process (see Figure 1 on page 3).

The board hears two types of cases:

l      In “ex parte” appeal cases, a panel of APJs affirms or reverses the examiner’s rejections
       of patent applications (decisions known as affirmations, affirmations-in-part, or reversals).
       It may return to the patent examiners cases that are not ready for appeal proceedings
       (decisions known as remands). Appeals may be withdrawn or abandoned by the appellant
       before the board’s decision.

l      In “inter parte” interference cases, APJs determine any question of patentability and
       priority of invention between two or more parties claiming the same patentable invention.
       An interference may be declared between two or more pending applications when the

                                                 2
U.S. Department of Commerce                                                                             Final Report BTD-10628
Office of Inspector General                                                                                     September 1998

         applications, or any application and any unexpired patent, contain claims for the same
         patentable invention.

                     Figure 1: Overview of the Patent Appellate Review Process1


                                 Patentable
                                 Invention
                  Patent                               Patent
                                                      Examiners

                                                              Rejection


                                               Board of Patent Appeals
                                                  and Interferences
                                                                                             Reversed
                                                             Affirmed


                   U.S. Court of Appeals for            Appeal            U.S. District Court for the
                      the Federal Circuit                                    District of Columbia



                      U.S. Supreme Court




In FY 1997, the board received 4,639 appeals and disposed of 2,132. At the end of FY 1997, the
number of pending appeals totaled 9,201, an increase of 1,837 over the end of FY 1996. The
board declared 287 new interference cases and terminated 115 such cases, resulting in a total of
448 pending interference cases at the end of FY 1997. At any time, the board has about 400
interference proceedings in various stages of prosecution.

The board is led by a Chief Administrative Patent Judge, who reports to PTO’s Deputy
Commissioner. At the end of FY 1997, there were 43 (41 full time) APJs and 40 support
personnel at the board. Non-APJ positions include resource administrators, paralegal specialists,
legal technicians, and office clerks. The resource administrators perform a variety of functions,
including communicating with the public and patent examiners, keeping computers running,
tracking cases, producing statistics, and generating routine procedural orders. The remaining
support staff work primarily on preparing cases for decision. The board’s FY 1998 operating
budget is $9.57 million.

         1
             Source: Chief Administrative Patent Judge of the Board of Patent Appeals and Interferences. Chart includes only
final actions, not remands for further consideration.

                                                              3
U.S. Department of Commerce                                                   Final Report BTD-10628
Office of Inspector General                                                           September 1998

                              FINDINGS AND RECOMMENDATIONS

I.          PRODUCTIVITY AND STAFFING PROBLEMS HAVE
            CAUSED HIGH AND INCREASING INVENTORY

In the past five years, the number of pending appeal and interference cases at PTO’s Board of
Patent Appeals and Interferences has grown by more than 3½ times, from 2,668 in FY 1993 to
9,649 in FY 1997, an average increase of almost 1,400 cases per year (see Figure 2). At the end
of FY 1997, the inventory, the board’s largest in at least 15 years, consisted of 9,201 appeal and
448 interference cases. Average appeal pendency increased from 20.7 months in FY 1997 to 23.1
months through the first quarter of FY 1998. Interference pendency increased from 23.5 months
in FY 1996 to 31.3 months in FY 1997. Despite recent initiatives to reduce the growing
inventory, PTO has waited too long to take action, threatening the quality of the appeal process.

             Figure 2: Workload Statistics           The board’s annual production has fallen
 10000
                                                     sharply since 1993. The annual number of
     8000                                            disposals has declined by 45 percent,
                                                     dropping by an average of 592 per year from
     6000
                                                     1993 to 1996, before increasing slightly in
     4000                                            1997. PTO reduced the number of APJs in
                                                     1994, but the number of APJs has remained
     2000
                                                     relatively constant since then. But disposals
        0                                            per APJ have declined by over 18 percent
              1993   1994      1995    1996   1997   since 1993 (see Table 1, page 5).
                            Appeals Filed           Yet even if the board had maintained the same
                            Disposals               level of production as it had in 1993, it would
                        Inventory                   not have eliminated the inventory. At the
                                                    1993 level of productivity, total disposals
would have increased during this period by 6,035. However, filings would have still exceeded
disposals by 4,360 cases, an average of 872 per year. If board production remains constant and
incoming filings for appeals and interferences had ceased at the end of FY 1997, the board would
need almost 2½ years to eliminate the inventory.

Moreover, PTO plans to hire 1,050 patent examiners by the end of FY 1999, which we believe
will eventually increase the inventory unless PTO takes immediate action. To illustrate, the
addition of 500 examiners represents an approximate 23-percent increase in the size of the
examiner corps. Assuming a corresponding increase in patent production takes place the
following year, we estimate that the board would receive 6,552 appeals, an increase of 1,716 over
the average number of filings during the past five years. Clearly, PTO must take immediate and
strong measures to address the current inventory before the wave of new examiners adds to it.

                                                 4
U.S. Department of Commerce                                                                 Final Report BTD-10628
Office of Inspector General                                                                         September 1998

             Table 1: Disposals Per Administrative Patent Judge (Appeals Only)

                                                                                                   % Change
                                           1993       1994       1995        1996       1997       Since 1993
 Appeals Filed                             4,487      4,481       5,225      4,998      4,639          up 3.4%
 Disposals                                 3,894      2,844       2,444      2,119      2,132       down 45%
 Appeal APJs                                   42         32         33          36         35    down 16.7%
 Disposals per APJ                             93         89         74          59         61    down 18.3%
               a
                   Does not include remands. The board began recording remands in FY1994.


We identified the following productivity, quality, and staffing issues that contribute to the
inventory: (1) APJs are not maximizing their annual production; (2) the quality of examiner
decisions is declining; (3) board review policies are hurting board productivity; (4) PTO and the
board are not adequately planning resource needs to meet the workload; and (5) APJs are
engaging in non-processing activities, but are not accounting for the time devoted to those
activities.

A.     Administrative Patent Judges Are Not Maximizing Their Annual Production

Board production increased significantly during the last quarter of each of the past three fiscal
years. During the last quarter of FY 1997, for example, the board produced 1,221 disposals
(including remands), or 43 percent of total production. Similarly, in FY 1996 and FY 1995, the
board’s level of production during the last quarter represented 32 and 30 percent of those years’
total production, respectively. According to the Chief Judge, production during the final quarter
of the fiscal year is traditionally higher than during other quarters throughout PTO, including at
the board, because it is the last chance for APJs to improve production statistics. He also stated
that the surge in FY 1997 was due in large part to an office-wide campaign to increase
production.

Production goals for the fully successful level of production are the same today as they were three
years ago. But the quantity of production required for the commendable and outstanding
performance levels has been lowered. For instance, while an APJ processing mechanical cases
previously had to author 140 decisions to obtain an outstanding rating, today the APJ must author
only 120. The previous Chief Judge reduced the goals because he believed that the quality of, and
confidence in, the board decisions were declining. He also wanted to take into account the
assistance given by the APJs to other PTO units.




                                                         5
U.S. Department of Commerce                                                                         Final Report BTD-10628
Office of Inspector General                                                                                 September 1998

The Chief Judge added that production goals were lowered because board officials sought to
emphasize the importance of generating high quality decisions at the board, improving morale,
and developing cohesiveness among the judges while maintaining production. Since the goals
were reduced, two key indicators that measure quality, the number of board reconsiderations2 and
the number of board decisions reversed by the courts, have steadily declined, indicating that
quality has improved. For example, the board processed 319 reconsiderations in FY 1993 but
only 68 in FY 1997. The U.S. Court of Appeals reversed 13 board decisions in FY 1994 and 5 in
FY 1997.

Past production data indicates that the board has exceeded current production levels and can
reduce the inventory. The board was last confronted with a workload crisis comparable to the
current inventory in FY 1986. At the end of that year, the board had a total inventory of 8,539
appeals and interferences. It took the board five years, while producing an average of 5,234
disposals per year, to reduce the inventory to a manageable level of 1,914 cases by the end of FY
1991 (about one-half of one year’s total disposals).

We agree that board quality is an important consideration in setting production levels. But the
board did not have data clearly indicating whether board quality suffered during the reduction in
inventory between 1986 and 1991, and we think the board can pursue both simultaneously.

Moreover, the board does not have a Strategic Plan, including specific goals, for reducing the
inventory and maintaining quality. The Government Performance and Results Act of 1993
specifies that an agency’s annual performance goals should define an objective and measurable
target level of performance for each program activity. PTO is developing and implementing a
performance measurement system applicable to its three major business and executive areas. But
it should establish performance goals that specifically define the results it expects the board to
achieve and performance measures that determine whether the board attains high levels of both
production and quality. To focus efforts on reducing the inventory, PTO should consider
instituting incentives to meet higher production goals than those currently in place.

B.       Board Members Note Decline in Quality of Appealed Patent Decisions

A key factor affecting production is the quality of patent application rejections that are appealed
to the board. Board personnel told us that the quality of the cases they are reviewing is declining.
They cited the lack of accountability of patent examiners for cases that are appealed and the
examiners’ declining experience base as contributing factors.



         2
          37 CFR §1.197 states that after a decision by the board, a single request for reconsideration or modification of the
decision may be made by the appellant. The request shall state with particularity the points believed to have been
misapprehended or overlooked in rendering the decision and also state the grounds upon which reconsideration is sought.

                                                               6
U.S. Department of Commerce                                                    Final Report BTD-10628
Office of Inspector General                                                            September 1998

Board personnel whom we interviewed stated that cases they receive from the examining corps
often contain administrative errors, inadequate support for the examiner’s final rejection, and
other unanswered questions or omitted information about the patent’s claims that should have
been addressed. As a result, APJs are spending time searching prior art (technical literature
including prior-issued patents and foreign patents, related documents, and non-patent literature
such as journal articles and abstracts), a task which is normally an examiner responsibility. Board
workload data supports their assertions. Reversals of examiner decisions and remands for
additional examiner review combined for 41 percent of the board’s total disposals in FY 1994, but
54 percent in FY 1997. Furthermore, rejections due to the examiner having overlooked prior art
have averaged 12 percent of the board’s decisions over the same period. In effect, overall
production is cut because APJs are spending more time processing appeals in order to make these
determinations.

APJs also stated that the gain-sharing system, used to determine examiner compensation based on
a variety of production goals and incentives, does not hold examiners accountable for rejections
that are appealed. They told us that examiners have an incentive to reject difficult cases requiring
more time to research because they receive credit for processing the application regardless of
whether they approve or reject it. One senior patent official confirmed the board’s assertions that
the system has a built-in bias toward rejections.

A review of the gain-sharing system and the quality of the examining process was beyond the
scope of our audit, but these assertions indicate a problem beyond the board’s jurisdiction. Board
officials should meet with senior patent officials to discuss ways to improve the process. In the
past, after an appeal brief was filed by the appellant, the primary examiner was required to
conduct an appeal conference with the appellant in order to review the case more closely and
determine whether it was ready for a decision by the board. PTO management eventually
eliminated the one hour per week given to examiners to hold the conferences because of concerns
over lost production. Today, one examining group is again using appeal conferences to reopen
the examination of several hundred cases that were sent to the board. Board officials and PTO
management generally support the idea of appeal conferences and should review the merits of
reinstating them, especially for the chemical discipline, the area generating the majority of appeals
(an inventory of 5,285 cases as of the end of FY 1997).

C.     Review Policies Followed by Board Are Hurting Productivity

Based on documentation we reviewed and interviews with board members, we found that APJs
spend excessive time disposing of interference cases due to its policy of hearing “inequitable
conduct” issues. Application of this policy has reduced the board’s overall productivity.

PTO decided in 1991 to consider whether parties in interference cases had engaged in “inequitable
conduct” by failing to meet the duty of full disclosure required under patent regulations. Under

                                                  7
U.S. Department of Commerce                                                                         Final Report BTD-10628
Office of Inspector General                                                                                 September 1998

the regulations, applicants and patentees must disclose all information material to patentability,
and patents will not be granted in the event of fraud or intentional misconduct.3 As a result of the
1991 decision, APJs must schedule evidentiary hearings to consider such issues and assess the
demeanor of the parties. We did not attempt to quantify the impact that this practice has on
interferences. However, according to board personnel, evidentiary hearings can delay interference
proceedings by months or even years.

The board has not always considered whether parties to interference cases had engaged in
inequitable conduct through fraud or misconduct. In the last 10 years, PTO has changed its
policy twice with respect to this issue. In October 1988, PTO announced it would no longer
consider duty of disclosure issues in interference cases due to the time and expense involved:

         “It is the courts and not the Office that are in the best position to fashion an
         equitable remedy to fit the precise facts in those cases where inequitable conduct is
         established. Inequitable conduct is not set by statute as a criteria for patentability
         but rather is a judicial application of the doctrine of unclean hands which is
         appropriate to be handled by the courts rather than by an administrative body.
         Office determinations significantly add to the expense and time involved in
         obtaining a patent with little or no benefit to the patent owner or any other parties
         with an interest.”

But in October 1991, PTO reversed that policy and again considered fraud and inequitable
conduct issues in interferences. In a November 1997 memo to the Commissioner to address
board productivity, the Chief Judge included a proposal to eliminate consideration of inequitable
conduct issues because “the PTO is not equipped to deal with inequitable conduct issues in a fair
and effective manner.” The board has not taken any action to change this policy, in part because
it would encounter some resistance from outside organizations. But the Chief Judge maintains
that this is a costly practice for the board and PTO. In FY 1997, interference cases accounted for
only 5 percent of the inventory, but the board dedicated almost 25 percent of its judges to process
them.

D.       PTO Has Not Adequately Planned for Resources to Handle Board Workload

We concluded that PTO and the board have not adequately planned for the board’s future
workload. The delayed recruitment of APJs, potential retirements, and underestimates of the
inventory have left the board in a precarious position. PTO must engage in better strategic
planning for using the board’s resources if the inventory is to be reduced to a manageable level.

         3
            37 CFR §1.56 sets forth criteria governing an applicant’s duty to disclose information material to patentability:
“...no patent will be granted on an application in connection with which fraud on the Office was practiced or attempted or the
duty of disclosure was violated through bad faith or intentional misconduct.”

                                                               8
U.S. Department of Commerce                                                    Final Report BTD-10628
Office of Inspector General                                                            September 1998

Delays in recruiting judges have resulted in lost production

Fourteen APJ positions have been vacant for more than a year and will take at least another year
to fill. As a result, we estimate that by the end of FY 1998, the board will have lost 28 staff-years
of production, equivalent to approximately two-thirds of one full year of production by the board,
or 2,400 cases.

In FY 1996, the board’s authorized level of permanent APJ positions was increased from 43 to 57
in order to prevent any further increase in the inventory of pending appeals. Notwithstanding the
8 previously vacant APJ positions filled during 1996, the board sought but was not permitted to
hire 14 additional APJs. According to board officials, they were not permitted to hire in part
because the new APJs would likely come from the examining corps, and PTO management did
not want to lose examiners to the board.

In November 1997, after the board continued to seek approval to hire, the Commissioner
instructed the board to fill all 57 APJ positions. In February 1998, the Department approved
PTO’s plans to fill these positions. But board officials informed us that because the processing
needed to fill APJ positions takes about a year, they were not confident that any of the 14 vacant
positions would be filled until the end of 1998. They also informed us that the board can absorb
about eight new APJs at a time. If they are correct (we did not review their assertions), we
anticipate that hiring of the APJs will continue into 1999, resulting in continued lost production.

One possible way to help reduce the inventory would be to reinstate a past practice of using
temporary judges or detailees. Under 35 U.S.C. §7(c), “Whenever the Commissioner considers it
necessary, in order to keep current the work of the [board], the Commissioner may designate any
patent examiner of the primary examiner grade or higher, having the requisite ability, to serve as
[an APJ] for periods not exceeding six months each.” For many years, the examining corps
regularly detailed examiners to the board. According to the Chief Judge, the longer they stayed,
the more productive they became. As a result of pressures on the examining corps to issue more
patents, the use of detailees was drastically reduced and ended in FY 1997.

Retirements impede board continuity and production

A wave of retirements over the past four years, as well as potential retirements, continue to
impede board continuity and production. A total of 21 APJs have retired over the past four years:
13 in 1994, 3 in 1995, 3 in 1996, 1 in 1997, and 1 in 1998. As of January 9, 1998, there were 43
full-time permanent APJs. Of these, 8 are eligible for immediate retirement. The board also
employs two part-time APJs as retired annuitants, and they can leave immediately. We also noted
that the board could be impacted should PTO offer early retirement provisions, an option not
under consideration at this time. Of the remaining 37 APJs, 21 would be eligible under those
provisions, unless PTO excludes the board from participation.

                                                  9
U.S. Department of Commerce                                                  Final Report BTD-10628
Office of Inspector General                                                          September 1998

As a result, not only is the board’s experience based on APJs who are eligible to retire, but
incumbent APJs’ are now shouldering responsibility for training new APJs. The situation facing
the board as a result of the potential departure of many experienced APJs and the arrival of
numerous inexperienced APJs was summarized in a 1996 memo from the Chief Judge to the
Chairman of PTO’s Performance Review Board:

       “Five of the APJs employed by the board at the end of FY 1996 were not
       employed at the board during any part of FY 1995 and three more were not
       employed at the board during any part of FY 1994. Two more APJs began board
       service in August 1994 and eight others began in May 1994. Thus, eighteen of the
       45 permanent APJs at the board at the end of FY 1996 were not at the board in
       March 1994.”

The Chief Judge has also asked appeal APJs to work on interference cases so they can become
familiar with ongoing cases before incumbent interference APJs retire. The sudden departure of
the 10 full- and part-time APJs eligible to retire would disrupt board operations and further
reduce production, because each year a typical appeals judge authors decisions for 75 to 100
cases and participates in another 200 to 300 cases as a panel member. Because it takes one year
for a new APJ to become fully productive, the board could not immediately compensate for the
loss of such production.

Turnover due to retirements has been a problem in the past and will continue to be a problem in
the future. Being a judge requires years of experience in patent law, so APJs tend to be older than
the average worker, and the need to strategically plan for their inevitable retirements is
imperative. The planned hiring of 14 APJs will help in the long run, but it will be necessary to
stagger their arrival if, as we were told, the board can absorb only eight new hires at a time
without seriously disrupting operations. PTO should also consider hiring additional APJs (above
the 14 planned hires) in anticipation of the retirements.

Underestimates of inventory have contributed to staffing dilemma

We compared PTO’s budget submissions for the past five years to historical production data and
found that the board had consistently underestimated its future workload. While the board
underestimated filings by an average of only 190 cases per year, it overestimated disposals by an
average of 1,706 cases per year. In reality, the board’s declining productivity caused previous
estimates to be very inaccurate. The following table compares budget projections with the actual
inventory.




                                                10
U.S. Department of Commerce                                                      Final Report BTD-10628
Office of Inspector General                                                              September 1998

            Table 2: Projected Vs. Actual Inventory (From Budget Submissions)

                                           1993        1994    1995     1996        1997
            Projected Inventory            2,242       2,918   3,168     5,308      6,607
            Actual Inventory               2,688       3,925   5,867     7,640      9,649

The board must do a better job of estimating its inventory so that PTO, the Department, the
Office of Management and Budget, and the Congress have a better appreciation of the problem.

Board lacks a career development program for potential APJs

PTO does not have a formal career development track for aspiring APJs, other than experience
obtained as a patent examiner. According to the Chief Judge, few examiners possess the
necessary qualifications to become an APJ (a J.D. and a B.S. in chemistry, biology, physics, or
some form of engineering). In 1996, board officials contemplated adopting an approach similar to
the federal courts’ “chambers” program. Under the proposed program, the board would have
created several senior patent legal and technical advisors who would serve as law clerks to judges;
this would have helped the advisors to become familiar with cases and drafting opinions. The
board planned to hire eight assistants from within PTO. In their opinion, the program represents
the most straightforward approach to maximizing the output of individual judges, while
minimizing the increase in the number of judges.

But one year after conceiving the program, the board was given the authority to hire only two
assistants. PTO-wide limitations on adding positions, as well as PTO management’s reluctance to
detail examiners to the board, essentially nullified the program. The Chief Judge decided that with
only two positions, the success or failure of the program could not be determined and postponed
it indefinitely. Board officials estimated that the cancellation cost the board 400 additional
decisions in 1997 (based on eight planned assistants).

Because of this, the board was deprived of an excellent opportunity not only to increase
productivity, but also to consider the merit of these positions as a means of identifying, training,
and evaluating potential APJs. Given the number of judges eligible to retire, PTO management
should reconsider the benefits of the “chambers” program, and should also establish a long-term
program for developing future APJs from the examiner ranks and eligible attorneys outside PTO.

E.     Administrative Patent Judges Are Performing Non-Processing
       Activities Without Accounting for Their Time

Despite the existence of separate timekeeping codes for work-related activities other than
processing appeals and interferences, APJs are not accurately accounting for time spent on such

                                                  11
U.S. Department of Commerce                                                    Final Report BTD-10628
Office of Inspector General                                                            September 1998

activities. As a result, the board cannot determine how much time the APJs spent on activities in
support of PTO’s mission, activities board officials have cited in the past when defending the
board’s production. If APJs do not accurately record their time, board management in turn does
not have accurate information to measure production and evaluate their performance.

We reviewed summary timekeeping reports for FY 1996 and FY 1997, which included separate
codes for processing appeals, declaring and processing interferences, determining patentability,
and working on special projects and studies. The reports showed that board members charged a
total of 2,801 hours in FY 1996 and 18 hours in FY 1997 to special projects/studies. We could
not quantify those hours not recorded by board members. But based on our discussions with
board officials and review of documentation describing other outside projects of APJs, we
concluded that the hours reported in FY 1997 were not accurate.

Board officials could not explain the discrepancy, but agreed that 18 hours significantly
understated the time they thought APJs actually spent on non-processing activities in FY 1997.
As pressures mount on the board to be more productive while continuing to make its resources
available to assist other PTO units on outside projects, it should accurately document and record
time spent on these activities.

F.     Remedial Actions Should Help Reduce Inventory,
       But Will Not Have Major Impact

To its credit, the board has implemented emergency measures to try to close the growing gap
between incoming cases and disposals. For example, in 1997 the Chief Judge initiated a campaign
to increase production. Interference judges now spend a percentage of their time processing
appeals, a change that we estimate should result in approximately 500 additional disposals in FY
1998. Policies concerning summary affirmances and reversals were modified to expedite cases.
Board officials informed us that with the Commissioner’s approval, they have now placed a
renewed emphasis on productivity.

Other organizational units have also taken steps to help reduce the inventory. The examining
corps is reviewing selected cases at the board that may eventually be returned to the corps. The
Office of Patent Quality Review is proposing to review cases before they are sent to the board. In
addition, Associate Solicitors from the Office of the Solicitor help APJs prepare appeal decisions.

However, we believe that these measures will not appreciably reduce the inventory. Across the
patent business environment, production efficiency has not kept pace with filing increases. We
recognize that there are factors beyond the board’s control that have inhibited its productivity, but
it must find effective ways to reduce the inventory. Part of the inventory problem stems from
issues involving other PTO staff, including poorly researched decisions made prematurely, board
recruitment efforts delayed because of concerns about their impact on the patent corps’

                                                 12
U.S. Department of Commerce                                                  Final Report BTD-10628
Office of Inspector General                                                          September 1998

production, and APJs spending time assisting other PTO units. Any solution to the problem will
require PTO top management to recognize how its policies related to the patent corps contribute
to the problem.

G.     Recommendations

We recommend that the Deputy Commissioner of Patents and Trademarks:

1.     Develop a strategic plan to reduce the inventory of cases to the equivalent of one-half
       year’s production (approximately 2,000 cases at the end of FY 1998) within five years.
       The plan should establish annual performance goals that specifically define the results PTO
       expects the board to achieve and performance measures that determine whether the board
       attains high levels of both production and quality.

2.     Assess the merits of instituting incentives for APJs to meet higher production goals than
       those currently in place.

3.     Meet with senior patent officials to consider ways to improve the appeal process,
       including the merits of reinstating appeal conferences and developing additional quality
       measures.

4.     Review whether the board is obligated and adequately staffed to handle inequitable
       conduct issues in interference cases.

5.     Hire new APJs up to the board’s authorized level as quickly as possible, but attempt to
       stagger their arrivals in order to minimize the training workload on incumbent APJs.
       Consider hiring additional APJs in anticipation of retirements.

6.     In consultation with senior patent officials, consider using temporary judges or detailees
       until the board is fully staffed and the inventory has been reduced to a manageable level.

7.     In the future, make projections of inventory based on actual historical data and current
       levels of production.

8.     In consultation with senior patent officials, implement a long-term development program
       for eligible patent examiners and outside attorneys interested in becoming APJs.

9.     Instruct APJs to accurately account for the time they spend on work not related to
       processing appeals and interferences.



                                                13
U.S. Department of Commerce                                                   Final Report BTD-10628
Office of Inspector General                                                           September 1998

PTO’s Response to Draft Report and OIG Analysis

In its reply to our draft report, PTO agreed to, or has taken action consistent with, seven of our
recommendations, disagreed with two other recommendations, and asked that we modify another.
PTO’s desire to improve the management, performance, and quality of the appeals process is
evident. We are encouraged by the board’s increased productivity in FY 1998 and the new Board
of Patent Appeals and Interferences Strategic Plan, which outlines strategies to reduce the
inventory and eliminate other risks that threaten the effectiveness of the appeal process.

A summary of general comments made by PTO under each major finding heading (and OIG
comments) is followed by a summary of PTO’s position on each recommendation as stated in the
draft report (and OIG comments). A copy of PTO’s complete response is attached.

PTO General Comments:

1.      PTO stated that excluding remands from our analysis does not present a completely
accurate picture of the board’s output. Specifically, the OIG’s inclusion of only disposals neglects
significant numbers of appeals that are remanded, dismissed, or withdrawn, all of which require a
certain amount of analysis and effort on the part of the board. The board remanded 532 appeals
during FY 1997. In addition, 138 appeals were dismissed or withdrawn.

PTO stated that projections for the remainder of FY 1998 indicate that productivity per full-time
APJ is expected to be very nearly as high as productivity per APJ in FY 1993. PTO said that, in
some instances, we used erroneous numbers for the number of “appeal” APJs and failed to take
into account the not infrequent crossover between appeal and interference work. PTO included a
“Board Activity” table that combines the statistics of all APJs to show the number of proceedings
in which APJs were required to reach a decision or determination during the year. The table
shows there were 103 proceedings per APJ in FY 1993 and 102 proceedings per APJ projected
for FY 1998.

2.      PTO stated that use of the term “maximizing” in the finding heading, “Administrative
Patent Judges Are Not Maximizing Their Annual Production,” suggests an emphasis on quantity
of production to the detriment of quality of the work produced, and suggested that the term
“optimizing” be used.

3.      PTO also provided additional information to explain the board’s rating systems from FY
1995 to FY 1997. PTO acknowledged that the de facto pass/fail system used during this period
resulted in a number of APJs not being challenged to produce at high levels of productivity and
undercut the value of lowering the numerical level required for commendable and outstanding
performance ratings. PTO stated those problems have been remedied in FY 1998 by a return to
the five-level performance plan and a corresponding rate of production not seen since FY 1993.

                                                14
U.S. Department of Commerce                                                   Final Report BTD-10628
Office of Inspector General                                                           September 1998

PTO said this demonstrates that the board is every bit as capable today of performing as well as it
did in FY 1993.

4.      PTO stated it would be more accurate for the finding heading, “Board Members Note
Decline in Quality of Appealed Patent Decisions,” to instead indicate that board members have
noted a decline in the quality of the examination or a decline in the quality of examination as
represented in the Examiner’s Answers reaching the board.

5.      PTO stated that the finding heading, “Board Review Policies Are Hurting Productivity,” is
misleading to the extent that it suggests that the identified “policies” are those of the board. PTO
asserted that the “policies” are the products of actions taken by former Commissioners, whether
by rulemaking or by Official Gazette notice.

6.       PTO responded that one of our principal conclusions, that PTO and the board have not
adequately planned for resources to handle the board’s workload, is not wholly correct. PTO
asserted that we did not take into account restrictions regarding the number of FTE employees
imposed on PTO, which necessitated hard decisions as to the allocation of FTEs within the PTO.
PTO said that FTE restrictions appear to have played a significant role in the decision not to
satisfy the board’s requests to fill 14 vacant positions with either APJs or other patent
professionals. That decision deprived the board and the public of nearly a full year of production
by the board, or about 3,000 to 4,000 decisions.

OIG Comments:

1.     We reviewed production statistics provided by the board for the first 11 months of FY
1998 and agree with PTO that the board has increased its production to a level comparable to FY
1993.

Our analysis of APJ productivity was limited to disposals for one reason: remands require a
certain amount of analysis and effort by the board, but not always by an APJ. We were informed
by the Chief Clerk that many cases are remanded before they are assigned to an APJ. Because
board production statistics do not differentiate between substantive and non-substantive remands,
we were reluctant to attribute all of them to APJs. Our report already discusses the importance of
remands and impact they have on board production (see page 6).

We did not include interference proceedings in our analysis of APJ productivity because they
account for a very small percentage of the board’s overall inventory (4.6% in FY 1997). We
estimated the number of appeal APJs based on data provided to us by the board. Those estimates
were also based, in part, on the assumption that there were approximately 11 interference APJs
during each of those years (we should point out that productivity projections set forth in the
board’s Strategic Plan are based on the premise it will have 11 interference APJs). We also

                                                15
U.S. Department of Commerce                                                    Final Report BTD-10628
Office of Inspector General                                                            September 1998

believe that our numbers depict fairly the significant turnover of APJs from FY 1994 to FY 1996
(see page 10). Because interferences account for such a small percentage of the board’s overall
inventory, combining appeals and interferences and dividing by the total number of APJs
camouflages the declining productivity of appeal APJs during that time.

2.      The word “maximize” is appropriate in the context of increased disposals in the last
quarter of fiscal years, the lowering of production goals, and comparisons to historical production
data. It is not intended to diminish the importance of quality in board decisions.

3.      We agree that it appears the board’s decision to return to a five-level rating system has
resulted in increased productivity in FY 1998. We revised the report in all instances to reflect that
APJs have goals, not quotas.

4.     We consider the finding heading already reflects that we are referring to the quality of
those examiners’ decisions appealed to the board.

5.     We acknowledge that the finding heading implies the relevant policies originated at the
board and have revised it to read: “Review Policies Followed by Board Are Hurting
Productivity.”

6.      Our report acknowledges the continuous efforts by the board to hire additional APJs.
Although we did not assess PTO-wide FTE allocation decisions during this time, we are indirectly
questioning decisions made that were detrimental to the board during several critical years when
the inventory was escalating.

Our estimate of lost production from the 14 vacant positions is lower than PTO’s. We did not
count an additional year of their potential production due to the year-long period needed to hire
them. Given the inexactness of the hiring process, the actual lost production probably falls
somewhere between these estimates.

Recommendation #1:

Develop a strategic plan to reduce the inventory of cases to 2,000 within five years. The plan
should establish annual performance goals that specifically define the results PTO expects the
board to achieve and performance measures that determine whether the board attains high levels
of both production and quality.

PTO Response: PTO agreed it must take immediate and strong measures to address the current
inventory and stated it has already begun to do so through the creation of the Board of Patent
Appeals and Interferences Strategic Plan. The plan includes several strategies to reduce the


                                                 16
U.S. Department of Commerce                                                  Final Report BTD-10628
Office of Inspector General                                                          September 1998

number and increase the quality of appeals and interferences reaching the board as well as increase
board output. It will be further refined and developed as time goes on.

OIG Comments: We concur with PTO’s response and consider the Strategic Plan as an initial
positive response to our recommendation. PTO should include the latest version in its audit
action plan.

The improvement in productivity only slightly reduces the inventory during this fiscal year, and
the Strategic Plan does not propose to reduce it to a more manageable level. PTO projects that
the board will process a total of 6,386 appeals during FY 2003, leaving an inventory of 3,973
appeals. Given the projected increases in the number of appeal APJs, and assuming the board can
retain them, the plan’s projections are reasonable, but point towards additional measures,
including possibly hiring APJs beyond those projected in the plan. We have revised our original
recommendation to propose a reduction to an amount equal to one-half of one year’s production
by the board (currently approximately 2,000 cases).

Recommendation #2:

Consider increasing APJ production goals to ensure that production goals are achieved.

PTO Response: PTO does not consider it appropriate to increase APJ goals because it would
signal to the APJs that PTO is more concerned with quantity than quality of production. The
board intends to focus its efforts on what it describes as “reality based performance appraisals.”
Under this approach, APJs achieving high quality performance and productivity will be rewarded
and encouraged while those APJs demonstrating poor quality performance and productivity will
be appropriately rated. APJs will be encouraged to increase their annual production through use
of the incentive award system. PTO states that the use of a de facto pass/fail system over the FY
1995 - FY 1997 period, during which no APJ was rated higher than fully successful, appears to
have resulted in a number of APJs not being challenged to produce at high levels of productivity.
PTO stated that goals that are achievable, awards that encourage high productivity and quality,
and willingness by management to reward and hold employees accountable, are more likely to
produce the desired outcomes than an increase in the goals.

OIG Comments: We concur with PTO’s response that incentives to meet realistic goals are more
likely to raise APJ production than just an increase in the goals. We have therefore amended our
recommendation to encourage incentives to meet higher production goals. As we state in the
report, such goals are required by GPRA.




                                                17
U.S. Department of Commerce                                                   Final Report BTD-10628
Office of Inspector General                                                           September 1998

Recommendation #3:

Meet with senior patent officials to consider ways to improve the appeal process, including the
merits of reinstating appeal conferences and developing additional quality measures.

PTO Response: PTO agreed with our recommendation. PTO responded that the Chief Judge
and other APJs have already begun meeting with senior patent officials to discuss problem areas
and consider ways to improve the appeal process. There is an ongoing effort to encourage the
practice of holding appeal conferences within the patent examining operation. PTO stated that
the practice is spreading with positive results.

PTO also stated that, in an effort to educate the examining corps and its management about board
practices, a seminar series for managers and a lunchtime educational series for examiners are
being developed and implemented. The initial management seminar sessions have been held with
positive results.

OIG Comments: We concur with PTO’s response to our recommendation.

Recommendation #4:

Review the applicability of 37 C.F.R. §1.196(b) rejections on new grounds and determine
whether more definitive guidelines should be developed for its application.

PTO Response: PTO disagreed that more definitive guidelines concerning the use of rejections
under 37 C.F.R. §1.196(b) are required. The APJs are high-level agency employees who are
required to interpret statutes and rules on a daily basis. PTO stated that although more direct
guidance to APJs concerning discretionary functions could improve board productivity, following
that course risks compromising the quality of PTO’s product. The Chief Judge continues to be
reluctant to issue guidelines constraining the judgment and discretion entrusted to APJs.
However, PTO believes that the reemphasis on production coupled with a willingness to remand
appeals that are not ready for efficient consideration (rather than assuming the duties of the
examiner) has begun to provide an alternative solution to this problem without unduly impacting
APJ discretion.

OIG Comments: PTO’s response is responsive to our recommendation. Our recommendation
did not state that PTO should issue guidelines, but that further review was warranted due to the
drop in production. It was based on a perceived lack of understanding among board members and
inconsistent application of the rule. After further discussion with board officials, we are satisfied
that, at this time, the board is applying this rule in a manner that is consistent with the goal of
maximizing production. Therefore, we are deleting the recommendation. However, the board


                                                 18
U.S. Department of Commerce                                                        Final Report BTD-10628
Office of Inspector General                                                                September 1998

should review the applicability of this rule during FY 1999 if the APJs do not maintain the recent
increase in production.

Recommendation #5:

Review whether the board is obligated and adequately staffed to handle inequitable conduct
issues in interference cases.

PTO Response: PTO stated that based on case law limiting board discretion to bypass
patentability issues in interferences (which are essentially and historically priority contests), it is
conceivable that its court of review might not permit the board to avoid consideration of
inequitable conduct issues in an interference even if the Commissioner decided to rescind the
current policy.

OIG Comments: PTO did not adequately address our recommendation. We are unclear as to
what corrective actions, if any, PTO plans to pursue regarding this issue.

Recommendation #6

Hire new APJs up to the board’s authorized level as quickly as possible, but stagger their
arrivals in order to minimize the training workload on incumbent APJs. Consider hiring
additional APJs in anticipation of retirements.

PTO Response: PTO agreed with our recommendation, but requested that staggering the arrival
of APJs be viewed as an essential, but not mandatory, requirement. The board is on the verge of
filling vacant positions and expects to have 17 new APJs (a net increase of 13) early in FY 1999.
Based on the individuals involved, the board may be able to rapidly assimilate these new hires.
Board officials recognize that there will be some disruption to experienced APJs. According to its
Strategic Plan, the board also plans to hire 11 APJs and 5 APJs by the end of FY 1999 and FY
2000, respectively.

PTO also stated that board officials have proposed to immediately begin advertising for additional
APJ candidates in the chemical and biotechnology disciplines, using an advertisement kept open in
an effort to create a flow of candidates.

OIG Comments: We concur with PTO’s response to our recommendation and have revised the
recommendation accordingly.




                                                   19
U.S. Department of Commerce                                                  Final Report BTD-10628
Office of Inspector General                                                          September 1998

Recommendation #7:

In consultation with senior patent officials, consider using temporary judges or detailees until
the board is fully staffed and the inventory has been reduced to a manageable level.

PTO Response: PTO agreed with our recommendation. The board is moving to address these
matters through development and implementation of its Strategic Plan. Specifically, the board
will seek creative ways in which opinions may be effectively prepared by exploring
(1) employment of contract “ghostwriters” such as retired APJs, (2) assignment of opinions to be
authored to qualified Supervisory Patent Examiners and Quality Assurance Specialists,
(3) expanded use of solicitor’s staff as “ghostwriters”, and (4) use of examiners in work
assignments at the board.

OIG Response: We concur with PTO’s response to our recommendation and expect senior PTO
management to support the board in implementing it.

Recommendation #8:

In the future, make projections of inventory based on actual historical data and current levels of
production.

PTO Response: PTO agreed with our recommendation. But PTO added that the board has not
traditionally forecast the number of appeals to be received each year or its own output. Engaging
in such forecasts, except as an extrapolation of earlier years’ results and providing generalized
guesses regarding trends based on changes in the law, would be outside the board’s normal area
of expertise.

OIG Comments: We concur with PTO’s response. The purpose of this recommendation was to
ensure that various organizational units that monitor the board’s workload and assist in preparing
budgets will more closely examine the board’s inventory and productivity in the future. We note
that the Strategic Plan attached to the response forecasts the number of appeals received and the
projected production for the next five years, as required by GPRA. We expect that the Strategic
Plan will be the basis for resource allocations over that period.

Recommendation #9:

In consultation with senior patent officials, implement a long-term development program for
eligible patent examiners and outside attorneys interested in becoming APJs.

PTO Response: PTO agreed with our recommendation. In its Strategic Plan, the board states it
will explore creation of a career track at the board for legal/technical advisors.

                                                20
U.S. Department of Commerce                                                    Final Report BTD-10628
Office of Inspector General                                                            September 1998

OIG Comments: We concur with PTO’s response to our recommendation and expect senior PTO
management to support the board in implementing it. PTO should include more details of the
planned career track in its action plan.

Recommendation #10:

Instruct APJs to accurately account for the time they spend on work not related to processing
appeals and interferences.

PTO Response: PTO agreed with our recommendation. PTO stated that APJ productivity goals
are not typically affected by “other time.” Unless truly significant amounts of time are involved in
a special project, or lost to illness, etc., APJs are expected to make their production goals as
stated in the performance plan, irrespective of leave time use, etc. As a result, accounting for time
apart from leave has received minimal attention.

PTO stated that it is evident the board must do a significantly better job of accounting for time
spent on other than decisional duties if the true cost of assisting other PTO organizations is to be
recognized. Accordingly, steps have been taken in FY 1998 and will be renewed in the coming
years to emphasize the need to carefully account for all time.

OIG Comments: We concur with PTO’s response to our recommendation. PTO should address
in its action plan what steps are being taken to ensure APJs are carefully accounting for their time.




                                                 21
U.S. Department of Commerce                                                     Final Report BTD-10628
Office of Inspector General                                                             September 1998

II.      BOARD DOES NOT ADEQUATELY MONITOR CASES AND
         NEEDS AN ADMINISTRATIVE MANAGER

During our audit, we identified several issues concerning the board’s monitoring of cases that
warrant management’s attention. Specifically, the board is not adequately tracking and assigning
cases or maintaining a reliable filing and retrieval system. As a result, the board is not managing
its workload efficiently and effectively.

These and other factors discussed earlier in our report led us to conclude that the board should
select a Chief Administrator to better manage the board’s workload. The Chief and Vice Chief,
who attempt to balance their responsibilities between being judges and office managers, spend
about 50 percent of their time on administrative matters. We believe that adding a Chief
Administrator would enable them to focus more on the board’s primary mission--processing
appeals and declaring and terminating interferences.

A.       Board Is Not Adequately Tracking and Assigning Cases

According to the board’s appeal case tracking system, as of March 31, 1998, the board had yet to
assign 8,555 appeals to the APJs, including cases received as far back as 1991. We reviewed a
printout of the board’s unassigned docket, as well as APJ docket reports, and concluded that the
board was processing hundreds of cases with more recent appeal numbers ahead of many older
cases. For example, 205 cases received in 1997 and 1998 were assigned, while 229 cases
received before or during 1994 were still unassigned (see Table 3). As a result, the older cases
have incurred unnecessary delays before formal proceedings begin. Based on these findings, we
have concerns about the board’s ability to manage its caseload.

               Table 3: Assigned and Unassigned Appeals, FY 1991 to FY 1998

                         1991     1992     1993        1994    1995    1996    1997    1998a   Total
 Unassigned Cases             1        3       38        187    975    2,316   3,659   1,376   8,555

 Assigned Cases               0        0       28        320    465     354     203        2   1,372

 Total                        1        3       66        507   1,440   2,670   3,862   1,378   9,927
               a
                FY 1998 totals as of March 31, 1998.

The statutory provisions governing appeals do not set forth time periods the board must follow,
and this has likely contributed to the high number of unassigned cases. The board also lacks a
policy to ensure that appeals are assigned within a certain time period. According to board
officials, the board’s policy is to generally process cases in the order in which they were received


                                                    22
U.S. Department of Commerce                                                    Final Report BTD-10628
Office of Inspector General                                                            September 1998

and docketed at the board. The resource administrators track and assign cases to the APJs and
are supposed to assign older cases first. These administrators offered several reasons why older
cases had not been assigned, including (1) cases were overlooked and not assigned; (2) erroneous
data by board personnel made cases difficult to locate; (3) cases were misplaced; and (4) cases
were remanded back to the patent corps, where the file was forgotten or the corps did not inform
the board of case resolution, and hence, the record was not closed out. These explanations
themselves raise serious concerns as to whether the board is adequately monitoring case files.

Monthly production reports prepared by the resource administrators do not include data on
unassigned cases so neither the Chief Judge nor Vice Chief were aware that the older cases
existed. They agreed that they should have been assigned. They informed us that they were
reviewing the status of the older cases and would begin immediately assigning those found to be
in the board’s possession. The board should implement a policy to ensure that all cases it receives
are assigned to an APJ within specific time periods to be determined for each discipline. Further,
the board should conduct at least one physical inventory of case files annually.

As we ended our audit, PTO officials told us that the board is upgrading the appeal case tracking
system to improve overall management of its inventory. In addition, the board plans to conduct
inventories on a more frequent basis. We agree that increasing the number of inventories taken
annually will help the board manage its inventory.

B.     Case Files Are Overwhelming Board’s Storage Capacity

The large volume of case files, especially interference files, currently stored by the board, are
overwhelming its storage capacity. Although we did not conduct an inventory of the board’s case
files, we observed the board’s storage areas and found them nearly filled to capacity. In addition,
we noted files located in common areas and vacant offices. Interference cases usually generate
boxes of files and require more space to store than appeal cases. For example, board personnel
had one office completely occupied by files from a single case. Also, the board has been storing
interference files for several years for some cases now being argued in court. Without adequate
space and better organization of these files, the storage and retrieval of case files will continue to
delay the processing of appeals and interferences.

Several interference judges criticized the current filing system because it makes locating files
difficult. One APJ described the situation as a “disaster.” The Chief Clerk stated that “retrieving
cases should take 10 to 15 minutes, but it usually takes anywhere from a few hours to several
days to find a file” because they are so spread out around the office. Board personnel are
currently reorganizing the filing system by appeal number, which will also enable the paralegals,
legal technicians, and clerks to locate files.



                                                 23
U.S. Department of Commerce                                                    Final Report BTD-10628
Office of Inspector General                                                            September 1998

During our audit, the board was informed that it would be receiving additional space on the same
floor it occupies now. The additional space should improve the board’s storage capability and
organization of case files. Once the space is available, the board should separate interference files
from appeal files and attempt to dispose of those files it is no longer required to maintain.

C.     Board Needs an Administrative Manager

The board lacks a professional manager who has primary responsibility for all non-judicial
matters. Consequently, key aspects of the board’s administrative support operations are not being
managed effectively and efficiently. Not only is the board not adequately monitoring cases or
maintaining a reliable filing system, but current operations are not satisfactorily streamlined to
handle the anticipated increases in its workload.

Responsibility for carrying out administrative functions such as organizing case files, assigning
cases, managing space, maintaining the database, and preparing budgets are scattered among the
Chief Judge, Vice Chief, four resource administrators, and Chief Clerk. We expect the
administrative support staff’s responsibilities will increase as the board’s workload increases. The
board has an unprecedented and growing inventory of cases. The addition of 14 APJs will
increase the size of the board to more than 90 FTEs in FY 1998. As a result, the corresponding
increase in “cases in process” will place more pressure on support personnel. We also concluded
that the board needs to conduct an annual inventory of its case files to ensure their integrity.

Selecting a Chief Administrator would enable the Chief Judge and Vice Chief, who say they spend
about 50 percent of their time on administrative matters, to focus more on the board’s mission.
We proposed this idea to the Chief Judge and Vice Chief, who said that they have discussed it,
but have not decided whether to create such a position. We are not stating that a new position
needs to be created, but that an administrative manager is needed.

D.     Recommendations

We recommend that the Deputy Commissioner of Patents and Trademarks:

1.     Determine the status of the older cases and immediately assign them to APJs.

2.     Establish a policy to ensure that all cases arriving at the board are assigned to an APJ
       within specific time periods for each discipline.

3.     Provide quarterly status reports to the Commissioner on the inventory that include the
       status of unassigned cases and an assessment of the adequacy of current resources. Board
       monthly production reports should also include the status of unassigned cases.


                                                 24
U.S. Department of Commerce                                                    Final Report BTD-10628
Office of Inspector General                                                            September 1998

4.     Ensure that the status of unassigned cases is included in all monthly production reports.

5.     Conduct at least one physical inventory of case files annually.

6.     As case files are reorganized and relocated, give highest priority to active appeal and
       interference cases files, and archive inactive case files.

7.     Select a Chief Administrator to oversee administrative functions at the board.

PTO’s Response to Draft Report and OIG Analysis

In its reply to our draft report, PTO agreed to, or has taken action consistent with, five of our
recommendations and asserted that it would not benefit from implementing two
recommendations.

PTO General Comments:

1.     PTO stated that in FY 1998 board management has been working to reengineer the way in
which cases and APJ dockets are monitored. Since the time of the audit, the board has
implemented a new system for filing, tracking and assigning appeal cases. According to PTO, the
new system in place since February 1998 appears to be giving highly reliable and timely
information.

PTO described several aspects of the new system. Appeal cases have been arranged and filed in
appeal number order, replacing the former serial number filing order, to allow easier identification
of the oldest appeals and permit adherence to “first in, first out” principles. A May 8-12, 1998
inventory of all pending appeal cases in APJs’ offices formed the baseline for each individual
APJ’s new docket. When an appeal is assigned to an APJ’s docket, the relevant information is
sent to the Chief Judge by a paralegal specialist. The Chief Judge adds the information to the
summary containing the individual APJ’s docket. At the end of the month, decided cases are
reported to the Chief Judge. The Chief Judge prepares a production report for each APJ and
deletes from the APJ’s docket all decided cases. Docket reports are sent to each APJ at the start
of each month and production reports covering the preceding month are e-mailed to each APJ by
the Chief Judge on the first day of each month.

This system allows the Chief Judge to make sure that the oldest appeal numbers are indeed being
assigned to the APJs and that these are being decided on a continuing basis. PTO stated that it
also allows the Chief Judge and Vice Chief Judge to keep a close watch on individual APJ
production.



                                                 25
U.S. Department of Commerce                                                   Final Report BTD-10628
Office of Inspector General                                                           September 1998

2.      PTO stated that the board is working to resolve the storage capacity problem. Appeal
case files are no longer being stored in vacant offices. With the acquisition of additional space on
the 12th floor, the board has vacated the office space presently occupied on the 4th floor. This
space will soon be reconfigured as a repository for the infrequently used interference files and
evidence boxes. Installation of shelving is expected to occur in October 1998. These changes
will permit the central files area to house, in an orderly and retrievable manner, the appeals cases
waiting assignment and the active interference files. All changes are expected to be complete by
December 31, 1998.

OIG Comments:

1.      The board should be commended for taking steps to improve its case tracking system.
Board officials informed us that they are assuming a more active role in monitoring the status of
individual APJ dockets until the new system has proven to be effective and those responsibilities
can be delegated accordingly. These steps should alleviate monitoring problems that prevailed
under the old system. These efforts also negate the need for the board to take corrective actions
with respect to two of our recommendations, as discussed below.

2.     Near the conclusion of our audit, the board had begun to address the space problem. As
we state in our report, the additional space should improve the board’s storage capability and
organization of case files. We consider the board’s efforts responsive to our recommendations.

Recommendation #1:

Determine the status of the older cases and immediately assign them to APJs.

PTO Response: PTO responded that the status of older cases has already been determined and
those cases have already been assigned to APJs for decision. PTO added that as a result of
changes to its case monitoring system, it is expected that by the end of FY 1998, with few
exceptions, there should be no appeals that arrived prior to FY 1995.

OIG Comments: Based on our review of additional documentation provided by the board, we
concur with PTO’s response to our recommendation. Board officials reported that as of
September 23, 1998, all 229 unassigned cases which had arrived at the board prior to FY 1995
have been assigned to an APJ. In addition, of those cases only 28 were still pending.

Recommendation #2:

Establish a policy to ensure that all cases arriving at the board are assigned to an APJ within
specific time periods for each discipline.


                                                 26
U.S. Department of Commerce                                                    Final Report BTD-10628
Office of Inspector General                                                            September 1998

PTO Response: PTO stated that with the continued use of “first-in, first-out” principles, it is
unnecessary to establish a separate policy of assigning appeals within a specific time period.
Assigning cases for decision on that basis allows the oldest case in any discipline to be assigned to
the next available APJ in that discipline, resulting in earlier decision.

OIG Comments: We do not concur with PTO’s response to our recommendation. Since the
Strategic Plan projects a continuing high inventory (almost 4,000 cases five years from now), we
recommend that the board institute such time limits as a means of assessing the board’s case
management.

Recommendation #3:

Provide quarterly status reports to the Commissioner on the inventory that include the status of
unassigned cases and an assessment of the adequacy of current resources. Board monthly
production reports should also include the status of unassigned cases.

PTO Response: PTO agreed with our recommendation. PTO stated that the board will gladly
provide reports to the Commissioner at whatever interval is desired concerning all relevant
matters. PTO stated that the board presently provides monthly reports to the budget office and
quarterly reports to the Commissioner concerning the input, output, and inventory of appeals and
interferences.

OIG Comments: We concur with PTO’s response to our recommendation.

Recommendation #4:

Ensure that the status of unassigned cases is included in all monthly production reports.

PTO Response: PTO responded that as long as “first-in, first-out” principles are followed to
assign cases, there is no benefit gained by including the status of unassigned cases in monthly
production reports.

OIG Comments: We do not concur with PTO’s response. The use of “first-in, first-out”
principles does not negate the need to report the status of unassigned cases in light of the
continuing high inventory. Senior board management should be aware of trends in case
management. We are therefore reiterating our recommendation.

Recommendation #5:

Conduct at least one physical inventory of case files annually.


                                                 27
U.S. Department of Commerce                                                  Final Report BTD-10628
Office of Inspector General                                                          September 1998

PTO Response: PTO agreed with our recommendation to conduct an inventory semi-annually.

OIG Comments: We concur with PTO’s response to our recommendation.

Recommendation #6:

As case files are reorganized and relocated, give highest priority to active appeal and
interference cases files, and archive inactive case files.

PTO Response: PTO agreed with our recommendation. PTO stated that no later than December
31, 1998, the board will complete reorganizing its files to give highest priority to active appeal
and interference files, while archiving inactive case files and infrequently used files.

OIG Comments: We concur with PTO’s response to our recommendation.

Recommendation #7:

Select a Chief Administrator to oversee administrative functions at the board.

PTO Response: PTO stated that the advisability of adding a “chief administrator” to assist the
Chief Judge is interesting and warrants investigation. An assistant such as a program analyst may
permit the Chief Judge, aided by the Chief Clerk, to efficiently accomplish the same ends served
by the selection of a chief administrator at lessor expense. During the first half of FY 1999, PTO
will explore both the benefits and costs of (1) hiring a program analyst to assume the data
collection aspects of the production and docketing system and (2) creating a chief administrator
position.

OIG Comments: We concur with PTO’s response to our recommendation. We continue to favor
the selection of a chief administrator. While the addition of a program analyst may benefit PTO in
some respects, we believe that the size of the board and its workload warrant the addition of an
individual who possesses the authority to assume significant responsibilities on a daily basis. Our
recommendation is also intended to reduce administrative responsibilities for the Chief Judge and
Vice Chief Judge. PTO should document its progress to address this recommendation in its
action plan.




                                                28
